Report No. D-2007-122       September 11, 2007




    Report of Marine Corps Internal Controls
        Over Military Equipment Funds
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DoD FMR               DoD Financial Management Regulation
GAO                   Government Accountability Office
DoD IG                Department of Defense Inspector General
                            INSPECTOR GENERAL
 

                           DEPARTMENT OF DEFENSE
 

                             400 ARMY NAVY DRIVE
 

                        ARLINGTON , VIRGINIA 22202-4704
 





                                                                     September 11, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               NAVAL INSPECTOR GENERAL


SUBJECT: Report on Marine Corps Internal Controls Over Military Equipment Funds
         (Report No. D-2007-122)


      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required .

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Alice Carey at (703) 325-6839 (DSN 221-6839) or Ms. Lidet Negash at (703)
325-5880 (DSN 221-5880). The team members are listed inside the back cover. See
Appendix D for the report distribution.

                               By direction of the Deputy Inspector General for Auditing:



                                      f~            a./YI~
                                      Paul J. Granetto, CPA
                                    FDf
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2007-122                                                 September 11, 2007
   (Project No. D2006-D000FH-0167.000)

       Marine Corps Internal Controls Over Military Equipment Funds


                                 Executive Summary

Who Should Read This Report and Why? Marine Corps personnel responsible for the
financial management of military equipment should read this report. This report
discusses the need for internal controls over military equipment funds to ensure
compliance with DoD and Marine Corps regulations.

Background. The U.S. Marine Corps maintains ready expeditionary forces, sea-based
and integrated air-ground units for contingency and combat operations, and the means to
stabilize or contain international disturbances. The Marine Corps Systems Command
mission is to serve as the Marine Corps Commandant's principal agent for acquisition and
sustainment of systems and equipment used to accomplish warfighting missions.

An obligation is the dollar value of an order placed, contract awarded, service received,
or similar transaction entered into during an accounting period that will require payment
during the same or a future accounting period. A deobligation is an adjustment for
differences between obligations previously recorded and actual payments to liquidate
those obligations. The DoD Financial Management Regulation, volume 3, chapter 8,
“Standards for Recording and Reviewing Commitments and Obligations,” June 2005,
and the Marine Corps Order P7300.21, “Marine Corps Financial Execution Standard
Operating Procedure Manual,” March 29, 2001, outlines the requirement to record and
monitor funds in a timely manner. Additionally, the DoD Financial Management
Regulation, volume 14, chapter 10, “Violations—Causes, Prevention and Correction,”
October 2004, identifies the most frequent causes of violations of the Antideficiency Act
as: not following established internal controls and standard operating procedures;
inadequate supervisory involvement or oversight; lack of appropriate training; and
inadequate standard operating procedures and internal controls. Further, when
obligations are not recorded in a timely manner, the official accounting record reflects an
inflated availability of funds.

Results. The Marine Corps Systems Command internal controls over managing funds
and retaining supporting documentation for obligations were generally adequate. The
controls complied with Federal and Marine Corps guidance and ensured the proper use of
funds and availability of funds. The Marine Corps Systems Command internal controls
over recording and monitoring commitments and obligations were inadequate because its
procedures did not ensure compliance with DoD and Marine Corps criteria. By not
complying with DoD and Marine Corps criteria, the Marine Corps Systems Command
could not ensure that the funds for military equipment programs were accurately recorded
and properly monitored. Ineffective internal controls may also increase the risk of
Antideficiency Act violations.

The Commandant of the Marine Corps should revise the Marine Corps Order P7300.21
to include the DoD Financial Management Regulation, volume 3, chapter 8 requirement
that funds should be obligated no later than 10 calendar days after an obligation has been
incurred and within the same month for obligations of $100,000 or more. The
Commander, Marine Corps Systems Command should establish and implement standard
operating procedures and controls to ensure that military equipment funds are obligated
and deobligated in a timely manner, that documentation is retained, and that the triannual
review process is implemented. See the Finding section of the report for detailed
recommendations.

Management Comments and Audit Response. The Department of the Navy, Office of
the Assistant Secretary (Financial Management and Comptroller), Director of the Office
of Financial Operations, responding for the Commandant of the Marine Corps and
Commander, Marine Corps Systems Command, concurred with all the recommendations.
See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents 


Executive Summary 	                                                            i


Background 	                                                                   1


Objectives 	                                                                   2


Review of Internal Controls 	                                                  3


Finding
      Adequacy of the Marine Corps Systems Command Internal Controls over 

         Military Equipment Funds                                              4



Appendixes
      A. Scope and Methodology 	                                              13 

          Prior Coverage                                                      14 

      B. Glossary 	                                                           15 

      C. Obligation Sample and Results 	                                      17 

      D. Report Distribution 	                                                22 


Management Comments
      Department of Navy                                                      23 

      United States Marine Corps                                              24 

Background
    The U.S. Marine Corps maintains ready expeditionary forces, sea-based and
    integrated air-ground units for contingency and combat operations, and the means
    to stabilize or contain international disturbances. As of FY 2006, the
    Marine Corps had approximately 600 military equipment programs or
    subprograms. The Marine Corps Systems Command (Systems Command)
    mission is to serve as the Marine Corps Commandant's principal agent for
    acquisition and sustainment of systems and equipment used to accomplish
    warfighting missions. During FYs 2003-2006, the Systems Command obligated
    approximately $12 billion in procurement funds.

    Internal Control Guidance. The Federal Managers’ Financial Integrity Act of
    1982 requires each executive agency to establish internal controls that provide
    reasonable assurance that:

       •	 obligations and costs are in compliance with applicable law;

       •	 funds, property, and other assets are safeguarded against waste, loss,
          unauthorized use, or misappropriation; and

       •	 revenues and expenditures applicable to agency operations are properly
          recorded and accounted for, to permit the preparation of accounts and
          reliable financial and statistical reports, and to maintain accountability
          over the assets.

    The Office of Management and Budget Circular A-123, “Management’s
    Responsibility for Internal Control,” December 21, 2004, provides guidance
    regarding how to meet the requirements of the Federal Managers’ Financial
    Integrity Act. The circular defines internal controls as an integral component of
    an organization’s management that provides reasonable assurance to ensure the
    effectiveness and efficiency of operations, reliability of financial reporting, and
    compliance with applicable laws and regulations. Management is responsible for
    developing and maintaining effective internal controls. Effective internal controls
    provide assurance that any significant weaknesses in the design or operation of
    internal controls, which could adversely affect the agency’s ability to meet its
    objectives, would be prevented or detected in a timely manner.

    Obligations and Deobligations. An obligation is a firm, legally binding
    agreement between parties for the acquisition of goods and services. It is the
    dollar value of an order placed, contract awarded, service received, or similar
    transaction entered into during an accounting period that will require payment
    during the same or a future accounting period. A deobligation is an adjustment
    for differences between obligations previously recorded and actual payments to
    liquidate those obligations. A deobligation can be recorded in the accounting
    system when a deobligating document is provided.

    DoD Financial Management Regulation. The DoD Financial Management
    Regulation (DoD FMR) volume 3, chapter 8, “Standards for Recording and
    Reviewing Commitments and Obligations,” June 2005, provides guidance on


                                         1

    determining the accounting periods in which commitments and obligations should
    be recorded. The regulation states that timely and accurate recording of
    obligations facilitates the disbursing officer’s ability to verify fund availability
    before authorizing payments. The regulation requires that the responsible
    accounting office record the obligation within 10 calendar days of being incurred.
    The office that incurs the obligation should provide a copy of the obligating
    document to the office responsible for recording the obligation within 6 calendar
    days. The responsible recording office is then required to record the obligation
    within 3 calendar days of receiving the obligating document. The regulation also
    requires that obligations of $100,000 or more per fund citation or accounting line
    on the obligation document should be recorded and included in the official
    accounting records in the same month in which the obligation is incurred.

    The DoD FMR, volume 14, chapter 10, “Violations—Causes, Prevention and
    Correction,” October 2004, identifies the most frequent causes of violations of the
    Antideficiency Act as: not following established internal controls and standard
    operating procedures; inadequate supervisory involvement or oversight; lack of
    appropriate training; and inadequate standard operating procedures and internal
    controls. Furthermore, the regulation identified exceeding the availability of
    funds as a common Antideficiency Act violation. When obligations are not
    recorded in a timely manner, the official accounting record reflects an inflated
    availability of funds.

    Marine Corps Order. The Marine Corps Order P7300.21, “Marine Corps
    Financial Execution Standard Operating Procedure Manual,” March 29, 2001,
    provides comptrollers with standard operating procedures related to the
    preparation, recording, reconciling, reporting and maintenance of financial
    records through all stages of funds management. The Marine Corps P7300.21
    states that obligations requiring manual input by fund managers into the
    accounting system must be recorded within 3 working days.

Objectives
    Our overall audit objective was to evaluate the internal controls over the
    Marine Corps funds used to acquire or modify military equipment after
    September 30, 2002. Specifically, we examined whether the Marine Corps
    process for obligating funds for military equipment met Federal, DoD, and
    Marine Corps requirements. We also examined whether funds were properly
    used and tracked.

    The initial announcement letter for this audit stated that our objective was to
    evaluate internal controls over DoD acquisition of military equipment, not
    specifying the Service. Furthermore, the objective included examining the DoD
    processes for obligating and disbursing funds. To ensure adequate coverage and
    timely issuance of the audit report, we modified our audit objectives to evaluate
    the Marine Corps internal controls over obligations. As a result, we reannounced
    the audit as the “Marine Corps Internal Controls over the Acquisition of Military
    Equipment” on November 15, 2006. See Appendix A for a discussion of the
    scope and methodology and prior coverage related to the audit objectives.
    Appendix B is a glossary of technical terms used in this report.


                                         2

Review of Internal Controls 

     We identified internal control weaknesses for the Systems Command as defined
     by DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
     January 4, 2006. The Systems Command did not have adequate internal controls
     over committing and obligating military equipment funds. Recommendations 2.a.
     and 2.b., if implemented, will improve the Systems Command controls over
     military equipment funds to ensure compliance with DoD and Marine Corps
     guidance. We will provide a copy of the report to the senior official responsible
     for internal controls in the Marine Corps.




                                         3

           Adequacy of the Marine Corps Systems
           Command Internal Controls over
           Military Equipment Funds
           The Systems Command internal controls over managing funds and
           retaining supporting documentation for obligations were generally
           adequate. However, the Systems Command internal controls over
           recording and monitoring commitments and obligations were inadequate
           because the Systems Command procedures did not ensure compliance
           with DoD and Marine Corps financial management criteria. Systems
           Command did not comply with DoD and Marine Corps criteria and could
           not ensure that the funds for military equipment programs were accurately
           recorded and properly monitored. Ineffective internal controls may also
           increase the risk of Antideficiency Act violations.

Systems Command Obligations
    We randomly selected 14 military equipment programs from the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics, Property
    and Equipment Policy Office’s universe of Marine Corps military equipment
    programs. For those 14 military equipment programs, we reviewed
    115 obligations recorded between October 2002 and June 2006. Specifically, we
    reviewed 100 obligations valued at approximately $60.3 million, and
    15 deobligations valued at approximately $10.5 million. See Appendix C for the
    obligation sample and issues identified during the audit.


Funds Management for Obligations
    The Systems Command generally had effective internal controls over managing
    funds for obligations. The Systems Command internal controls generally ensured
    the proper use of funds and the availability of funds as required by Federal and
    Marine Corps guidance.

    Proper Use of Funds. For 99 obligations, valued at approximately $60.3 million,
    and 14 deobligations, valued at approximately $10.5 million, the Systems
    Command generally ensured that its use of funds complied with appropriation
    restrictions. The Systems Command controls ensured that it used procurement
    funds to acquire major items such as tanks, radios, and guided missile equipment,
    in accordance with the Marine Corps Order P7300.21. Because Systems
    Command did not provide funding and obligating documentation, we were unable
    to determine whether two funding actions (valued at less than $1,000) complied
    with appropriation restrictions.

    Availability of Funds. For 95 obligations, valued at approximately $60 million,
    and 14 deobligations, valued at approximately $10.5 million, Systems Command
    controls ensured that funding documents were certified for fund availability.


                                        4

    According to Section 1341, United States Code, title 31, “Limitations on
    Expending and Obligating Amounts,” January 19, 2004, an officer or employee of
    the U.S. Government may not make or authorize an expenditure or obligation that
    exceeds the amount available in an appropriation. For five obligations valued at
    $334,158, and one deobligation valued at $79.90, Systems Command did not have
    funding documents to support the certification of fund availability.


Retaining Obligating Documentation
    The Systems Command generally had effective internal controls over retaining
    documentation to support obligations. As required by Section 1501,
    United States Code, title 31, “Documentary Evidence Requirement for
    Government Obligation,” January 19, 2004, an amount should only be recorded
    as an obligation when supported with evidence of a written binding agreement.
    Further, the DoD FMR, volume 4, chapter 6, “Property, Plant, and Equipment,”
    July 2006, states that DoD Components are required to retain source documents,
    such as sales and procurement contracts, in a readily available location during the
    applicable retention period.

    Of the 115 obligations we reviewed, the Systems Command properly retained
    supporting obligating documents for 96 obligations, valued at approximately
    $60.2 million, and 14 deobligations, valued at approximately $10.5 million.
    However, for four obligations, valued at $110,110.46, Systems Command did not
    provide supporting obligating documents. For instance, the Systems Command
    did not provide documentation to support an obligation valued at $97,070 for
    contract support for the Radio Reconnaissance Equipment Program.
    Additionally, the Systems Command did not provide supporting obligating
    documents for one deobligation valued at $79.90.


Recording Obligations
    The Systems Command did not always record obligations for military equipment
    in accordance with the DoD FMR, volume 3, chapter 8. The DoD FMR requires
    the following:

        •	 that obligations and deobligations be recorded within 10 calendar days of
           being incurred, and

        •	 that obligations and deobligations of $100,000 or more per fund citation
           or accounting line on the obligating document be recorded in the official
           accounting records in the same month that they are incurred.

    The Marine Corps Order P7300.21 states that upon the receipt of an obligating
    document, the fund manager should record the obligation in the accounting
    system within 3 working days. The Marine Corps Order P7300.21 does not
    address the DoD FMR, volume 3, chapter 8, requirement that after an obligation
    is incurred, the responsible office should record the obligation within 10 calendar
    days and within the same month for obligations greater than $100,000. The


                                         5

Commandant of the Marine Corps should revise the Marine Corps
Order P7300.21 to incorporate the DoD FMR, volume 3, chapter 8, requirement
for recording obligations. Because the Marine Corps is in the process of updating
the Marine Corps Order P7300.21, we have already notified the Marine Corps of
this pending recommendation. The Marine Corps representatives agreed to
address the DoD FMR requirements in an updated version of the Marine Corps
Order P7300.21 that will be issued by December 2007.

Of the 115 obligations we reviewed, the Systems Command made 62 obligations,
valued at approximately $33.9 million, and 10 deobligations, valued at
approximately $9.1 million, in a timely manner. However, the Systems
Command personnel did not record 37 obligations in a timely manner because
they did not always receive the obligating documents on time. We were unable to
determine whether another five obligations, valued at $170,110.46, and
one deobligation, valued at approximately $79.90, were recorded in a timely
manner because the Systems Command did not provide us with the supporting
obligating documents or the accounting transaction reports.

10-Day Rule
Obligations. For 33 of the 37 untimely obligations, the Systems Command
recorded the obligations, valued at approximately $26.2 million, more than
10 days after incurred. The following table shows that the Systems Command did
not record the 33 obligations in a timely manner.

                         Recording Obligations
                                                     Value of
         # of Days          # Obligations           Obligations
      11-30 days                  8                $3,927,149.00
      31-90 days                 16               $15,725,399.81
      91-150 days                 5                $4,457,663.00
      151-627 days                4                $2,070,199.97
           Total                 33               $26,180,411.78


For example, the Systems Command did not timely record an obligation of
$16,365 when it acquired waveform generators for the Communication Emitter
Sensing and Attacking System through a contract awarded by the Systems
Command Contracts Directorate. The Systems Command incurred the obligation
on December 13, 2003, but did not record the obligation until August 31, 2005,
627 days after incurring the obligation. Because the Systems Command did not
record obligations in a timely manner, it risked violating the Antideficiency Act.
In addition, the Systems Command risked understating its obligations on the
financial statements, which could prevent the Marine Corps from receiving a
favorable audit opinion.

Deobligations. For 4 of the 37 untimely obligations, the Systems Command
recorded deobligations, valued at approximately $1.3 million, more than 10 days
after they were incurred. Because the Systems Command did not deobligate


                                     6

funds in a timely manner, the accounting system did not accurately reflect the
amount of available funds. The following table shows that the Systems
Command did not record the four deobligations in a timely manner.

                        Recording Deobligations
                                                     Value of
         # of Days         # Deobligations         Deobligations
      14 days                    1                    $49,000.00
      36 days                    1                 $1,297,470.36
      98 days                    1                      $122.64
      247 days                   1                      $433.94
           Total                 4                 $1,347,026.94


Funds Disbursed Before Obligated. For 2 of the 37 untimely obligations,
Defense Finance and Accounting Service (DFAS) recorded disbursements valued
at $13,787 before the Systems Command recorded the corresponding obligations.
For example, DFAS recorded a disbursement for $1,635 on January 1, 2004, for
the Field Food Service System program. However, the Systems Command did
not record the obligation until February 3, 2004. Also, DFAS recorded
two disbursements totaling $12,152 for the Radio Reconnaissance Equipment
Program on February 6, 2003, but the Systems Command did not record the
corresponding obligation until February 21, 2003.

Timely and accurate recording of obligations facilitate the disbursing officer’s
ability to verify fund availability before authorizing payment. The DoD FMR,
volume 14, chapter 10, states that when obligations are not recorded, the official
accounting system reflects an inflated availability of funds. As a result,
Antideficiency Act violations can easily occur, because personnel rely on the
accounting system to certify fund availability. The regulation further states that
this potential violation is commonly discovered when an unmatched disbursement
is recorded in the accounting system. The Systems Command risked causing
Antideficiency Act violations, because the official accounting system did not
reflect the correct amount of funds available for obligation.

According to the Marine Corps Order P7300.21, it is the fund manager’s
responsibility to ensure that each source document is recorded in the accounting
system through each step of the transaction cycle (commitment, obligation,
expense, and liquidation). Furthermore, the DoD FMR, volume 3, chapter 8,
states that the fund holder and supporting accounting office should implement
procedures to ensure that obligations are promptly recorded in the accounting
system.

The Deputy Commander, Resource Management (Comptroller Office) provides
both financial support and workforce management and development within
Systems Command. The Comptroller Office provides financial policy, advice,
and services to ensure that program resources are properly and efficiently
executed. A Comptroller Office representative stated that the individuals
involved in recording obligations include fund managers, project managers,
procurement contracting officers, administrative contracting officers, and


                                    7

    vendors. The Comptroller Office representative explained that they can only
    control the fund manager and project manager portions of the process. To
    improve the timeliness of recording obligations incurred by Marine Corps
    Contracting Offices, the Systems Command has established system interfaces
    between the Marine Corps Standard Accounting, Budget and Reporting System
    and various internal systems. However, the Systems Command does not currently
    have interfaces between the Standard Accounting, Budget and Reporting System
    and non-Marine Corps systems.

    The representative stated that several non-Marine Corps contracting offices do not
    provide obligating documentation in a timely manner. Additionally, the
    representative stated that in some instances the Systems Command may not
    receive the obligating document until receipt of the invoice. According to the
    DoD FMR, the office that incurs the obligation should provide the obligating
    document to the office responsible for recording the obligation within 6 calendar
    days. Despite noncompliance with the DoD FMR by non-Marine Corps
    organizations, the Systems Command is still responsible for monitoring funds to
    ensure that transactions are recorded in the accounting system in a timely manner.
    Therefore, the Systems Command should establish and implement procedures to
    ensure that funds are timely obligated and deobligated in the accounting system as
    required by the DoD FMR, volume 3, chapter 8. These procedures should include
    prompt follow-up with organizations to obtain the obligating documents. If
    unsuccessful in obtaining the obligating documents in a timely manner, the
    Systems Command should retain documentation to support that the office
    incurring the obligation did not timely provide the obligating document.

    Obligations Greater Than $100,000
    Of the 115 obligations reviewed, 39 obligations, valued at approximately
    $57.2 million, and 4 deobligations, valued at approximately $8.8 million, were
    each valued greater than $100,000 and should have been recorded in the month
    incurred, as required by the DoD FMR, volume 3, chapter 8. Of these
    43 transactions, the Systems Command did not record 17 obligations valued at
    $28,606,486 and 2 deobligations valued at $1,569,158 in the month incurred.

    In one case, the Systems Command did not record an obligation valued at
    $2,013,629, until 7 months after incurring the obligation. The Systems Command
    incurred this obligation on December 20, 2002, for the High Mobility Artillery
    Rocket System. However, the Systems Command did not obligate the funds until
    July 16, 2003. By not obligating funds in the same month incurred, the Systems
    Command increased the risk of Antideficiency Act violations.

Monitoring Controls
    The Systems Command internal controls over monitoring commitments were
    inadequate. Specifically, the Systems Command controls did not ensure the
    implementation of a triannual review process. This resulted in the Systems
    Command recording obligations up to 2 years after actually incurring the



                                        8

    obligation and DFAS recording disbursements before the Systems Command
    obligated funds in the accounting system.

    The DoD FMR, volume 3, chapter 8, states that fund holders, with assistance
    from supporting accounting offices, should review commitment and obligation
    transactions for timeliness, accuracy, and completeness during each of the
    4-month periods ending on January 31, May 31, and September 30 of each fiscal
    year, a process known as the “triannual review.” The regulation also states that
    the fund holder is required to maintain documentation to support the review for
    24 months, to allow organizations to verify that the reviews were accomplished as
    required. In its implementation of these requirements, the Marine Corps
    Order P7300.21 further requires that fund managers perform a validation of all
    outstanding transactions to confirm that transactions in the accounting system
    accurately reflect the source documents.

    We requested that the Comptroller Office provide the triannual review
    documentation for September 30, 2005 and September 30, 2006. A Comptroller
    Office representative indicated that documentation may not be available to
    support the September 30, 2005 review. We later learned that the Comptroller
    Office could not provide supporting documentation for the reviews conducted in
    2005 or 2006. Consequently, we concluded that the Systems Command did not
    implement the triannual review process as required by the DoD FMR, volume 3,
    chapter 8, and Marine Corps Order P7300.21.

    Monitoring controls such as a triannual review process could have improved the
    Systems Command management of the 37 untimely obligations. Furthermore, a
    review process would increase the likelihood that the Systems Command would
    record obligations accurately and in a timely manner, thus reducing the risk of
    potential Antideficiency Act violations. The Systems Command should
    implement a triannual review process to ensure that funds are reviewed for
    timeliness, accuracy, completeness, and that documentation is retained in
    accordance with the DoD FMR, volume 3, chapter 8, and Marine Corps
    Order P7300.21.


Procedures for Implementing Criteria
    The Systems Command did not establish and implement standard operating
    procedures to ensure the implementation of controls that would satisfy the
    DoD FMR and Marine Corps Order P7300.21 requirements. The DoD FMR,
    volume 14, chapter 10, identifies inadequate standard operating procedures and
    internal controls as being one of the most frequent causes of violations of the
    Antideficiency Act.

    The Systems Command did not always comply with the requirement to obligate
    funds in a timely manner and conduct required triannual reviews. As mentioned
    earlier, when obligations are not recorded, the official accounting records can
    reflect an inflated availability of funds. Standard operating procedures to require
    that the Systems Command conduct triannual reviews, once established and
    implemented, should improve the monitoring controls over commitment and


                                         9

    obligations. Further, such procedures would enhance the controls over obligated
    funds and help to ensure that funds are timely obligated, thereby limiting the risk
    of funds being disbursed before obligation and of Antideficiency Act violations.
    The Systems Command should establish and implement procedures and controls
    that ensure military equipment funds are obligated in the accounting system and
    that triannual reviews are conducted.

    Although the number and value of the sampled supporting documents not retained
    were minimal, the lack of supporting documentation affected the Systems
    Command’s ability to fully support funds management and the recording of
    obligations and deobligations for military equipment. To obtain a favorable
    opinion on the Marine Corps financial statements, the Systems Command must be
    able to support the value of military equipment with source documents that reflect
    all transactions affecting the Component's investment in property, plant, and
    equipment. Developing standard operating procedures will enhance the controls
    over retaining source documentation, ensuring full compliance with retention
    requirements. The Systems Command should establish and implement standard
    operating procedures and controls that ensure that source documents are retained
    in accordance with the DoD FMR, volume 4, chapter 6.


Conclusion
    Because it did not comply with DoD and Marine Corps criteria, the Systems
    Command could not ensure that funds for military equipment programs were
    accurately recorded and properly monitored. Also, ineffective standard operating
    procedures and internal controls may increase the risk of Antideficiency Act
    violations.

    Because of the inadequate procedures and controls, DFAS recorded
    disbursements before the Systems Command recorded corresponding obligations,
    and the official accounting records did not reflect an accurate availability of
    military equipment funds. When the official accounting records reflect an
    inflated availability of funds, the Systems Command increases the risk of
    Antideficiency Act violations.

    Establishing and implementing standard operating procedures and internal
    controls will increase the Systems Command’s ability to manage military
    equipment funds and may decrease the risk of Antideficiency Act violations.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commandant of the Marine Corps revise the
    Marine Corps Order P7300.21 to include the DoD Financial Management
    Regulation, volume 3, chapter 8 requirement that funds be obligated and
    deobligated no more than 10 calendar days after being incurred and within
    the same month incurred for obligations of $100,000 or more.


                                         10 

Management Comments. The Department of the Navy, Office of the Assistant
Secretary (Financial Management and Comptroller), Director of the Office of
Financial Operations, responding for the Commandant of the Marine Corps,
concurred with the recommendation. The Director stated that the Marine Corps
Order P7300.21 was being revised to incorporate the DoD FMR, volume 3,
chapter 8 requirement to timely record transactions in the accounting system. He
stated that the revision will address the requirements to record an obligation
within 10 calendar days of the date it was incurred and to record obligations of
$100,000 or more within the same month incurred. The Director stated that he
expected to issue the revised Marine Corps Order P7300.21 by December 31,
2007.

2. We recommend that the Commander, Marine Corps Systems Command:

       a. Establish and implement standard operating procedures and
controls which ensure that military equipment funds are obligated and
deobligated in a timely manner, and that documentation is retained as
required by the DoD Financial Management Regulation.

        Management Comments. The Department of the Navy, Office of the
Assistant Secretary (Financial Management and Comptroller), Director of the
Office of Financial Operations, responding for the Commander, Marine Corps
Systems Command, concurred with the recommendation. The Director stated that
there are processes in place to comply with the DoD FMR requirements. The
Director noted that a majority of the obligations the auditors reviewed were
incurred by non-Marine Corps organizations. Further, the Director stated that the
Marine Corps Systems Command does not have control over obligations incurred
by other Services on behalf of the Marine Corps. The Director indicated that the
Marine Corps Systems Command has controls to safeguard against violations of
the Antideficiency Act, such as recording administrative reservations of funds in
the accounting system.

        Audit Response. The Director comments were responsive. However, in
accordance with the Marine Corps Order P7300.21, even though another
organization incurred the obligation, the Marine Corps Systems Command is
responsible for monitoring funds to ensure that transactions are recorded in the
accounting system in a timely manner. As the Director stated, there are processes
in place to comply with the DoD FMR. These processes should include
monitoring procedures that ensure the Marine Corps Systems Command records
funds in a timely manner. Specifically, such procedures should ensure that fund
managers follow up with the organizations incurring the obligation and retain
supporting documentation to verify when those organizations do not provide
obligating documents in a timely manner.

       b. Implement the triannual review process to ensure that funds are
reviewed for timeliness, accuracy, completeness, and that documentation is
retained in accordance with the DoD Financial Management Regulation,
volume 3, chapter 8, and the Marine Corps Order P7300.21.

       Management Comments. The Department of the Navy, Office of the
Assistant Secretary (Financial Management and Comptroller), Director of the


                                   11 

Office of Financial Operations, responding for the Commander, Marine Corps
Systems Command, concurred with the recommendation. The Director stated that
the Marine Corps can increase the effectiveness of its triannual review process
through improved documentation and follow-up on dormant obligations. The
Director stated that process improvements over the triannual review process will
be in place by October 21, 2007.




                                   12 

Appendix A. Scope and Methodology 

   We reviewed the Marine Corps process for obligating funds for military
   equipment acquired or modified after September 30, 2002. Specifically, we
   visited the Systems Command Headquarters in Quantico, Virginia. We
   performed site visits and corresponded with the Systems Command personnel
   from June 2006 through May 2007. At the Systems Command Headquarters, we
   interviewed personnel from the Comptroller’s Office, Supply Office, and select
   program offices to learn the Marine Corps process for obligating funds for
   military equipment programs. We developed an obligation review list, with
   questions based on criteria from the DoD FMR and Marine Corps
   Order P7300.21. We compared the Marine Corps process against the relevant
   criteria to identify weaknesses in internal controls.

   In May 2006 we obtained the Office of the Under Secretary of Defense for
   Acquisition, Technology, and Logistics, Property and Equipment Policy Office
   universe of military equipment programs. The universe contained 51 Systems
   Command military equipment programs acquired or modified after September 30,
   2002. Of the 51 programs, we selected 14 Systems Command military equipment
   programs.

   For each program, we judgmentally selected five procurement fund obligations
   processed between October 2002 and June 2006. The sample totaled
   70 obligations that were valued at approximately $48 million. However, after
   reviewing the supporting documents, we determined that 15 of the 70 obligations
   were supported with multiple obligating documents. The multiple obligating
   documents were amendments to increase or decrease obligated funds. As a result,
   the total number of obligations reviewed increased to 115 obligations.
   Specifically, we reviewed 100 obligations valued at approximately $60.3 million,
   and 15 deobligations valued at approximately $10.5 million. We requested and
   reviewed the supporting documentation for each obligation selected. Supporting
   documentation included:

      •	 DD Form 448, “Military Interdepartmental Purchase Request;”

      •	 DD Form 448-2, “Acceptance of Military Interdepartmental Purchase
         Request;”

      •	 Navy Comptroller Form 2275, “Order for Work or Services;”

      •	 Navy Comptroller Form 2276, “Request For Contractual Procurement;”

      •	 DD 1155, "Order for Supplies or Services;"

      •	 Standard Form 1449 "Solicitation/Contract/Order for Commercial Items;"

      •	 Standard Form 30 "Amendment of Solicitation/Modification of Contract;"

      •	 Standard Form 26 "Award/Contract;"



                                      13 

         •   DD Form 1149 “Requisition and Invoice/Shipping Document;”

         •   travel authorizations; and

         •   Standard Accounting, Budgeting and Reporting System printouts.

      We performed this audit from May 2006 through May 2007 in accordance with
      generally accepted government auditing standards.

      Use of Computer-Processed Data. To achieve the audit objective, the Systems
      Command personnel provided computer-processed data extracted from Standard
      Accounting, Budgeting and Reporting System. We did not perform a formal
      reliability assessment of the computer-processed data. We did not find errors
      between the computer-processed data and source documents that would preclude
      use of the computer-processed data to meet the audit objective or that would
      change conclusions in this report.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of a Defense financial management high-risk area.


Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) and the
      Department of Defense Inspector General (DoD IG) have issued 4 reports
      discussing internal controls over obligations. Unrestricted GAO reports can be
      accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
      can be accessed at http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. 03-275, “Defense Budget: Improved Reviews Needed to Ensure
      Better Management of Obligated Funds,” January 2003

      GAO Report No. 02-635, “DoD Contract Management: Overpayments Continue
      and Management and Accounting Issues Remain,” May 2002

DoD IG
      DoD IG Report No. D-2006-102, “Marine Corps Governmental Purchases” July
      2006

      DoD IG Report No. D-2003-095, “Accounting for Reimbursable Work Orders at
      Defense Finance and Accounting Service Charleston,” June 2003




                                          14 

Appendix B. Glossary
Antideficiency Act. The Antideficiency Act is legislation enacted by Congress to:
prevent the incurring of obligations or the making of expenditures (outlays) in excess of
amounts available in appropriations or funds; to fix responsibility within an agency for
the creation of any obligation or the making of any expenditure in excess of
apportionment or reapportionment or in excess of other subdivisions established pursuant
to sections 1341 and 1517 of 31 United States Code; and to assist in bringing about the
most effective and economical use of appropriations and funds.

Appropriation. An appropriation is statutory authority to incur obligations and to make
payments out of the U.S. Treasury for specified purposes.

Commitment. A commitment is an administrative reservation of funds based on firm
procurement requests, unaccepted customer orders, directives, and equivalent
instruments.

DD Form 1149 Requisition and Invoice/Shipping Document. The DD Form 1149 is
used to initiate the requisition of materials or services from Federal and non-Federal
sources. This form is used for commitment purposes.

Disbursement. A disbursement is a payment to an individual or organization for goods
furnished or services rendered.

Military Equipment. Military Equipment is defined as weapon systems that can be used
directly by the Armed Forces to carry out battlefield missions. Military equipment: has
an expected useful life of two or more years; is not intended for sale in the ordinary
course of business; does not ordinarily lose its identity or become a component part of
another article; is available for the use of the reporting entity for its intended purpose.

Military Interdepartmental Purchase Request. A military interdepartmental purchase
request is an order issued by one military service to another to procure services, supplies,
or equipment for the requiring service.

Navy Comptroller Form 2275, “Order for Work and Services.” The Navy
Comptroller Form 2275 is used to request reimbursable work or services from any
components within the Department of the Navy. The form authorizes funds for an
external command to perform work or services for the requesting command. Prior to the
acceptance by the performing activity, the Navy Comptroller Form 2275 is considered a
commitment document to the requestor. Once signed and accepted by the performing
activity, the form becomes the obligating document.

Navy Comptroller Form 2276, “Request for Contractual Procurement.” The Navy
Comptroller Form 2276 is used to request a contracting action for work or services that
are known and specific in nature and must be procured by contract (e.g., large computer
buys, laundry service contracts). This form can be a commitment or an obligation
document, depending on whether funds are direct-cited or are accepted on a
cost-reimbursement basis.




                                             15 

Obligations Incurred. An obligation is a firm, legally, binding agreement between
parties for the acquisition of goods and services. It is the dollar value of an order placed,
contract awarded, service received, or similar transaction entered into during an
accounting period that will require payment during the same or a future accounting
period. An obligation may be deobligated from the accounting system when a
deobligating document is provided. A deobligation is an adjustment for differences
between obligations previously recorded and actual payments to liquidate those
obligations.

Standard Accounting, Budget and Reporting System. Standard Accounting, Budget
and Reporting System is the official accounting system for the U.S. Marine Corps.

Triannual Review Process. A triannual review process is the review of commitment
and obligation transactions for timeliness, accuracy, and completeness during each of the
4-month periods ending on January 31, May 31, and September 30 of each fiscal year.
The requirement for reviews of commitments and obligations applies to all DoD
appropriations and funds. Supporting documentation should be retained for a period of
24-months following the completion of the triannual review.




                                             16 

Appendix C. Obligation Sample and Results
                                            (An obligation can have more than one problem.)




                                                                                                                                          No obligating document
                                                                        Recorded between 11


                                                                                              Recorded between 31


                                                                                                                    Recorded between 91




                                                                                                                                                                   Not Obligated in the
                              Obligation Number




                                                                                                                                                                                          Disbursed before
                                                                                                                    and 627 days




                                                                                                                                                                   Same Month
                                                                        and 30 days


                                                                                              and 90 days




                                                                                                                                                                                          obligated
Standard Document
     Number                                       AMOUNT ∗
M9545003RC32051                1                   $957,134.00
                               2                  $3,657,273.00                                                          X                                              X
                               3                  $2,013,629.00                                                          X                                              X
                               4                   ($957,134.00)
                               5                    $957,134.00
                               6                     $44,010.00
                               7                       ($122.64)                                                         X
M9545003RC32056                1                    $668,788.76
                               2                   ($668,788.76)
                               3                    $668,788.76
                               4                          $5.92                                    X
                               5                          $5.97                                                          X
                               6                       ($433.94)                                                         X
M9545005MP52172                1                     $77,000.00                                                          X
M9545060651071                 1                        $400.32
M9545060651046                 1                      $6,588.00
M9545005MP52187                1                      $6,000.00
                               2                       ($192.00)
M9545052081831                 1                        $569.16
M9545004RC42005                1                    $740,335.00                                    X                                                                    X
                               2                     $20,000.00
                               3                     $14,564.00                                    X
                               4                     ($5,115.00)
M9545004RC42127                1                     $51,522.88                                    X



∗
    This column identifies deobligations with parentheses.



                                                                   17
                                                                                                                                         No obligating document
                                                                       Recorded between 11


                                                                                             Recorded between 31


                                                                                                                   Recorded between 91




                                                                                                                                                                  Not Obligated in the
                             Obligation Number




                                                                                                                                                                                         Disbursed before
                                                                                                                   and 627 days




                                                                                                                                                                  Same Month
                                                                       and 30 days


                                                                                             and 90 days




                                                                                                                                                                                         obligated
Standard Document
     Number                                      AMOUNT ∗
M9545003RC32094                     1             $191,888.91
M9545006WR64233                     1              $420,000.00
                                    2            $1,375,000.00
M9545005RC02767                     1              $300,000.00
M9545005WR54324                     1               $50,000.00
M9545004MP44041                     1              $400,000.00                                    X                                                                    X
M9545040624140                      1               $22,509.00
M9545003RC36338                     1                $5,720.00                                    X
M9545004MP36385                     1                $2,061.00                                                          X                                                                    X
M9545060381011                      1              $120,750.00
M9545060381012                      1              $573,562.50
                                    2             ($271,687.50)                                                                                                        X
M9545061641351                      1               $64,548.00
M9545005RC6415                      1            $4,994,277.93
                                    2                $5,726.07
                                    3            $8,765,652.00
                                    4             ($374,592.00)
                                    5              $367,670.10
M6785406TOE2409                     1                $3,355.39
M9545003MP36151                     1               $37,300.00
M9545003MP36296                     1               $12,500.00                                                                               X
M6785405TOE3283                     1                $3,638.31
M9545004MP45045                     1            $2,796,391.00
M9545005RC02570                     1               $52,788.00




∗
    This column identifies deobligations with parentheses.



                                                                  18
                                                                                                                                        No obligating document
                                                                      Recorded between 11


                                                                                            Recorded between 31


                                                                                                                  Recorded between 91




                                                                                                                                                                 Not Obligated in the
                             Obligation Number




                                                                                                                                                                                        Disbursed before
                                                                                                                  and 627 days




                                                                                                                                                                 Same Month
                                                                      and 30 days


                                                                                            and 90 days




                                                                                                                                                                                        obligated
Standard Document
     Number                                      AMOUNT ∗
M9545004RC45069                     1             $188,235.00
                                    2               $80,672.00
                                    3               $13,594.00
                                    4                $1,680.00
                                    5               $18,884.00
                                    6                $9,971.00
                                    7               $23,264.00
M9545004RC45069                     8                $6,232.00
                                    9               $50,420.00
                               10                   $14,937.00
                                    1                14937.00
                               12                   (14937.00)
                               13                   $14,471.23
M9545004RC45068                     1                $9,020.00
M9545006WR55158                     1                $5,684.00
M9545003RC34469                     1               $60,000.00
M9545004RC34735                     1               $16,365.00                                                         X
M54005WR54177                       1              $434,000.00             X
M9545006RC64017                     1              $145,645.00
M9545006RC64087                     1              $399,999.69                                                                                                        X
M9545006RC64036                     1            $1,324,400.00             X                                                                                          X
M9545006RC64059                     1               $78,118.00
M9545005RC54059                     1              $112,000.00                                   X                                                                    X
M9545004RC44291                     1               $30,278.00
M9545003WR34201                     1               $97,070.00                                                                              X                                               X
M9545005RC01766                     1               $12,900.00
M9545005WR54161                     1              $764,100.00




∗
    This column identifies deobligations with parentheses.



                                                                 19
                                                                                                                                          No obligating document
                                                                        Recorded between 11


                                                                                              Recorded between 31


                                                                                                                    Recorded between 91




                                                                                                                                                                   Not Obligated in the
                             Obligation Number




                                                                                                                                                                                          Disbursed before
                                                                                                                    and 627 days




                                                                                                                                                                   Same Month
                                                                        and 30 days


                                                                                              and 90 days




                                                                                                                                                                                          obligated
Standard Document
     Number                                      AMOUNT ∗
M9545005RC54744                     1             $936,760.00
M9545005RC54744                     1                $19,976.00
M9545004RC44106                     1               $106,173.00                                    X                                                                    X
                                    2             $2,083,245.00                                    X                                                                    X
M9545005RC54089                     1               $606,984.39                                    X                                                                    X
M9545005RC54808                     1             $8,859,411.00                                    X                                                                    X
                                    2            ($1,297,470.36)                                   X                                                                    X
                                    3                 ($270.00)
                                    4            ($6,807,959.03)
                                    5               $624,000.00                                                          X                                              X
M9545004RC44072                     1                $24,688.00
M9545005RC54796                     1                $39,908.08
                                    2               $145,000.00              X                                                                                          X
M9545004RC44357                     1                $97,329.00                                                          X
M9545003RC36364                     1                 $4,515.56                                    X
M9545032584404                      1                   $425.00                                                                               X
                                    2                   ($79.90)                                                                              X
M9545032724512                      1                   $115.46                                                                               X
M9545004RC46063                     1                 $1,493.24
M9545005RC01462                     1               $470,000.00              X
M9545004MP46135                     1                $24,895.00                                    X
M9545004RC46135                     1             $1,372,105.00
M9545005MP56243                     1                $19,865.00
M9545005RC56243                     1               $976,135.00
M9545004WR46134                     1                $10,000.00




∗
    This column identifies deobligations with parentheses.



                                                                   20
                                                                                                                                           No obligating document
                                                                         Recorded between 11


                                                                                               Recorded between 31


                                                                                                                     Recorded between 91




                                                                                                                                                                    Not Obligated in the
                             Obligation Number




                                                                                                                                                                                           Disbursed before
                                                                                                                     and 627 days




                                                                                                                                                                    Same Month
                                                                         and 30 days


                                                                                               and 90 days




                                                                                                                                                                                           obligated
Standard Document
     Number                                       AMOUNT ∗
M9545004RC42003                     1               $80,100.00                X
                                    2                 $14,058.00
                                    3                 ($7,000.00)
M9545006MP52312                     1                 $25,731.30
M9545005RC52198                     1                 $20,880.00                                    X
M9545003RC32021                     1                $474,240.00
M9545003RC32021                     1                $106,941.06                                    X                                                                    X
                                    2                ($49,000.00)             X
M9545003MP32083                     1              $3,405,888.00                                                                                                         X
                                    2              $1,433,000.00              X                                                                                          X
                                    3              $1,260,000.00
M9545005RC52116                     1                 $22,313.00              X
M9545005RC02324                     1              $2,588,207.00                                    X                                                                    X
M9545005RC52116                     1                 $40,200.00                                                          X
M9545006RC62027                     1                 $18,336.00              X


Total Obligations                                 $60,288,881.99
Obligations with                                                               8                   16                      9                      4                    17                       2
Problems
Total Deobligations                              ($10,454,782.13)
Deobligations with                                                             1                     1                     2                      1                       2                     0
Problems




∗
    This column identifies deobligations with parentheses.



                                                                    21
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Commandant of the Marine Corps
  Commander, Marine Corps Systems Command
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          22 

Department of the Navy Comments 




                                 DEPARTMENT OF THE NAVY
                                    OFFICE OF THE ASSISTANT SECRETARY
                                (FINANCIAL MANAGEMENT AND COMPTROLLER)
                                           1000 NAVY PENTAGON
                                        WASHINGTON DC 20350-1000




                                                                              August        1,2007       FIRST INDO


      From: Director, Office of Financial Operations
      To:   Department of Defense Office of the Deputy Inspector General for Auditing,
            Defense Financial Auditing Service

      Subj: DEPARTMENT OF DEFENSE INSPECTOR GENERAL DRAFT REPORT D-2006­
            D000FH-0l67.000, "MARINE CORPS INTERNAL CONTROLS OVER MILITARY
            EQUIPMENT FUNDS," DATED 28 JUNE 2007

      1. Forwarded, concur with no comment.

      2. My point of contact is Mr. Kyle T. Fugato, who can he reached at (202) 685-6718.




                                                 Director
                                                 Office of Financial Operations




                                                                                                     |




                                                    23 

United States Marine Corps Comments 


                              DEPARTMENT OF THE NAVY
                         HEADQUARTERS UNITED STATES MARINE CORPS 

                               3000 MARINE CORPS PENTAGON 

                                WASHINgTON, DC            20350-3000   IN REPLVREFERTO:

                                                                       6FH-0167
                                                                       RFR-50
                                                                       27 Jul 07

     From:    Commandant of the Marine Corps (RFR)
     To:      Department of Defense Office of the Deputy Inspector 

              General for Auditing, Defense Financial Auditing Service 

     Via:     Assistant Secretary of the Navy, Financial Management and 

              Comptroller 


     Subj :   DEPARTMENT OF DEFENSE INSPECTOR GENERAL DRAFT REPORT
              D-2006-D000FH-0167.000, "MARINE CORPS INTERNAL CONTROLS
              OVER MILITARY EQUIPMENT FUNDS," dated 28 June 2007

     Ref:     (a) DODIG memo of 28 June 2007 


     Encl:    (1) Marine Corps comments 


     1. In accordance with reference (a), the Marine Corps has 

     reviewed the subject draft report and provides comments at the 

     enclosure. 




                                    R. F. KASSEL 

                                    By direction 





                                            24 

Subj:    DEPARTMENT OF DEFENSE INSPECTOR GENERAL DRAFT REPORT 

         D-2006-D000FH-0167.000, "MARINE CORPS INTERNAL CONTROLS 

         OVER MILITARY EQUIPMENT FUNDS," dated 2S June 2007 


1. The Marine Corps has reviewed the draft report and the 

following comments are provided: 


Recommendation A.l. Recommend that the Commandant of the Marine 

Corps revise the Marine Corps Order P7300.21 to include the DoD 

Financial Management Regulation, volume 3, chapter 8 requirement 

that funds be obligated and deobligated no more than 10 calendar 

days after being incurred and within the same month incurred for 

obligations of $100,000 or more. 


     Marine Corps Response: Concur. Marine Corps Order (MCO) 

P7300.21 is undergoing revision and specific references to DoD 

Financial Management Regulation (FMR), Volume 3, Chapter 8 have 

been incorporated into the draft form of the order. Sections 

underscoring the transaction recording process address the 

requirement to record accounting system entries "as soon as 

possible and no later than 10 calendar days from the receipt of 

source documents that accurately reflect the proper transaction 

cycle stage of each unique document number." Sections 

highlighting source document monitoring convey the following 

requirements: 


        1. "Ensure that the obligation document	 (e.g., purchase 

           order, contract) has been received within 6 calendar days 

           from the date the obligation was incurred." 


        2 . "Obligations requiring manual input by fund managers into 

           the accounting system must be keyed within 3 calendar 

           days from the receipt of the obligating source 

           document(s). Obligation recording cannot exceed 10 

           calendar days from the date the obligation is incurred. 

           Obligations of $100,000 or more must be recorded in the 

           same month as incurred." 


MCO P7300.21 revision and publication is expected to be 

completed by 31 DEC 2007. 


Recommendation 2.     Recommend the Commander, Marine Corps Systems 

Command: 


             a. Establish and implement standard operating 

                procedures and controls which ensure that military 

                equipment funds are obligated and deobligated in a 

                timely manner, and that documentation is retained 

                as required by the DoD Financial Management 

                Regulation. 



                                                                 End (1) 





                                   25 

Subj:   DEPARTMENT OF DEFENSE INSPECTOR GENERAL DRAFT REPORT 

        D-2006-D000FH-0167.OO0, "MARINE CORPS INTERNAL CONTROLS 

        OVER MILITARY EQUIPMENT FUNDS," dated 28 June 2007 


Marine Corps Response: Concur. Marine Corps Systems Command has 

procedures and controls in place to satisfy the requirements 

outlined in the DOD Financial Management Regulation. However, 

it should be noted that the large majority of the obligation 

records reviewed by the IG were obligations that were incurred 

outside of the Marine Corps resulting in untimely 

obligations/deobligations. The Marine Corps does not control 

outside agencies/services throughput time to submit MIPR 

Acceptances/contract documentation for entry into the accounting 

system. In all cases, Marine Corps Systems Command records an 

administrative reservation of funds (commitment) in the 

accounting system (SABRS). Therefore, regardless of when the 

obligation document appears for that requirement, the funds have 

already been reserved for that purpose. Subsequently, only the 

uncommitted budgetary balance would be available for new 

requirements. This control safeguards against violations of the 

Antideficiency Act. 


           b. Implement the triannual review process to ensure 

              that funds are reviewed for timeliness, accuracy, 

              completeness, and that documentation is retained in 

              accordance with the DoD Financial Management 

              Regulation, volume 3, chapter 8, and the Marine 

              Corps Order P7300.21. 


Marine Corps Response: Concur. The Marine Corps Systems Command 

does have a triannual review process, but agrees that 

documentation and follow-up on dormant obligations can be 

improved to increase effectiveness. Process improvements will 

be in place in time for the next triannual review, due to be 

completed by 21 October 2007. 





                                26 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
Alice F. Carey
Lidet K. Negash
Davita N. Pray
Shirlenne S. Tsay
Ellen Kleiman-Redden




                                   27 

